AUDIT OF THE OFFICE ON VIOLENCE AGAINST 

  WOMEN AWARD TO THE INTERNATIONAL 

   ASSOCIATION OF FORENSIC NURSES 

          ELKRIDGE, MARYLAND 


         u.s.  Department of Justice
        Office of the Inspector General
                 Audit Division

         Audit Report GR-30-13-004 

              September 2013 

    AUDIT OF THE OFFICE ON VIOLENCE AGAINST

      WOMEN AWARD TO THE INTERNATIONAL

       ASSOCIATION OF FORENSIC NURSES

              ELKRIDGE, MARYLAND


                        EXECUTIVE SUMMARY

      The Department of Justice (DOJ) Office of the Inspector General (OIG),
completed an audit of Office on Violence Against Women (OVW) cooperative
agreement number 2011-TA-AX-K021 totaling $677,000 awarded to the
International Association of Forensic Nurses (IAFN) in Elkridge, Maryland.
The OVW funding was part of the OVW’s Technical Assistance Program that
provides OVW grantees with training, expertise, and problem-solving
strategies to meet the challenges of addressing domestic violence, sexual
assault, dating violence, and stalking.

       The objective of our audit was to assess performance in the key areas
of cooperative agreement management that are applicable and appropriate
for the cooperative agreement under review. These areas include:
(1) internal control environment; (2) federal financial reports and progress
reports; (3) drawdowns; (4) budget management and control;
(5) expenditures, including personnel and indirect costs; (6) monitoring of
consultants; and (7) program performance and accomplishments.

      Our audit found that the transactions were, in general, properly
authorized, classified, supported, and charged to the cooperative agreement.
However, during the audit, we found IAFN accounting records did not
reconcile to the Federal Financial Reports (FFR), and, consequently, filed an
inaccurate Federal Financial Report (FFR). We identified that IAFN failed to
timely file final indirect cost rate proposals, which resulted in unsupported
indirect cost charges totaling $53,187. We also found IAFN did not use
written contractual agreements between IAFN and its hired consultants and
did not have a formal policy to select and monitor consultants.

      Our report contains four recommendations. We discussed the results
of our audit with IAFN officials and have included their comments in the
report.
                                    Table of Contents

                                                                                               Page

INTRODUCTION ................................................................................ 1

FINDINGS AND RECOMMENDATIONS................................................ 4

  Internal Control Environment ..............................................................4

  Reporting ..........................................................................................5

    Federal Financial Reports..................................................................5

    Progress Reports .............................................................................7

  Program Performance .........................................................................7

  Drawdowns .......................................................................................8

  Budget Management and Control .........................................................8

  Cooperative Agreement Expenditures ...................................................9

    Personnel and Fringe Benefits ...........................................................9

    Travel, Supplies, Consultant, and Other Costs................................... 10

    Indirect Costs ............................................................................... 10

  Monitoring of Consultants.................................................................. 11

  Recommendations............................................................................ 11

SCHEDULE OF DOLLAR-RELATED FINDINGS ................................... 13

APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ............... 14

APPENDIX II - INTERNATIONAL ASSOCIATION OF FORENSIC

NURSES RESPONSE TO THE DRAFT REPORT.................................... 16

APPENDIX III - OFFICE ON VIOLENCE AGAINST WOMEN RESPONSE

TO THE DRAFT REPORT................................................................... 18

APPENDIX IV - OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND 

SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT .......... 20

                              INTRODUCTION

       The Office of the Inspector General (OIG), completed an audit of Office
on Violence Against Women (OVW) cooperative agreement number 2011­
TA-AX-K021 totaling $677,000 awarded to the International Association of
Forensic Nurses (IAFN) in Elkridge, Maryland. The OVW funding was part of
the OVW’s Technical Assistance Program that provides OVW grantees with
training, expertise, and problem-solving strategies to meet the challenges of
addressing domestic violence, sexual assault, dating violence, and stalking.
The primary purpose of the technical assistance program is to provide direct
assistance to grantees and subgrantees to enhance the success of local
projects that they implement with grant funds.

       IAFN was awarded the cooperative agreement to fund its Sexual
Assault Forensic Examiner Technical Assistance Project (SAFEta). 1 SAFEta’s
overarching goal is to deliver technical assistance and training on a national
level to OVW grantees and potential grantees such as healthcare
professionals, law enforcement officers, advocates, and prosecutors who
provide care and respond to sexual assault victims throughout the United
States and who are implementing the recommendation included within the
most current version of the National Sexual Assault Forensic Examiner
(SAFE) Protocol and/or the National Training Standards. As shown in Exhibit
1, IAFN was awarded a total of $677,000 to implement the cooperative
agreement.

                    Exhibit 1: Summary of Awards Audited

                                                                                  Award
                                                                                 Amount
     Awards               Type of Award               Award Period                 ($)
2011-TA-AX-K021       Cooperative Agreement       5/09/2011-1/31/2012              150,000
2011-TA-AX-K021       Supplement                  9/23/2011-1/31/2014              527,000
                                                                TOTAL            $677,000
Source: OJP Grants Management System (GMS) award documentation




       1
          The IAFN is a not-for-profit international membership organization; its primary
mission is to provide leadership in forensic nursing practice by developing, promoting and
disseminating information internationally about forensic nursing science.
Audit Approach

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the cooperative agreement were allowable,
supported, and in accordance with applicable laws, regulations, guidelines,
and terms and conditions of the cooperative agreement; and whether the
awardee was meeting its program goals and objectives.

       The objective of our audit was to assess performance in the key areas
of cooperative agreement management that are applicable and appropriate
for the cooperative agreement under review. These areas include:
(1) internal control environment; (2) federal financial reports and progress
reports; (3) drawdowns; (4) budget management and control;
(5) expenditures, including personnel and indirect costs; (6) monitoring of
consultants; and (7) program performance and accomplishments.

      We tested compliance with what we considered the most important
conditions of the cooperative agreement. Unless otherwise stated in the
report, we used the 2012 OVW Financial Grants Management Guide
(Financial Management Guide), and the award documents to assess IAFN’s
performance and compliance with the requirements of the cooperative
agreement. 2 Specifically, we tested what we believed to be critical award
requirements necessary to meet the objectives of the audit, including:

   •	 Internal Control Environment to determine whether the internal
      controls in place for the processing and payment of funds were
      adequate to safeguard the funds awarded to IAFN and ensures
      compliance with the terms and conditions of the cooperative
      agreement.

   •	 Reporting to determine if the required federal financial reports and
      progress reports were submitted timely and accurately reflect the
      activity of the cooperative agreement;

   •	 Drawdowns to determine whether drawdowns were adequately
      supported and if the auditee was managing receipts in accordance with
      federal requirements;


      2
          The OVW Financial Grants Management Guide serves as a reference of information
to assist OVW award recipients in financial management and grants administration of OVW
grant programs. OVW requires award recipients to abide by the requirements in
conjunction with the provisions of OMB circulars and other government-wide common rules
applicable to grants and cooperative agreements, program guidelines, special conditions,
terms and conditions, and regulations and statutes.


                                           2

  •	 Budget Management and Control to ensure that IAFN appropriately
     tracked costs to approved budget categories;

  •	 Cooperative Agreement Expenditures to determine the accuracy
     and allowability of costs charged to the cooperative agreement; and

  •	 Monitoring of Consultants to determine whether IAFN was in 

     compliance with monitoring its consultants; and


  •	 Program Performance and Accomplishments to determine

     whether IAFN has met the cooperative agreement objectives;


      The award did not include program income, matching costs, or
property management. The results of our analysis are discussed in detail in
the Findings and Recommendations section of the report. Appendix I
contains additional information on our objective, scope, and methodology.




                                     3

            FINDINGS AND RECOMMENDATIONS

       COMPLIANCE WITH ESSENTIAL AWARD REQUIREMENTS

      Our audit found that the transactions were, in general, properly
      authorized, classified, supported, and charged to the cooperative
      agreement. However, during the audit, we found that
      information submitted for the Federal Financial Reports (FFR)
      were inconsistent with the information in the accounting records.
      We identified that IAFN failed to file timely final indirect cost rate
      proposals, which resulted in unsupported indirect cost charges
      totaling $53,187. Finally, during our audit, we identified that
      IAFN did not use written contractual agreements with its hired
      consultants and did not have a formal policy to effectively
      monitor consultants.

Internal Control Environment

       According to the Financial Management Guide, grant recipients are
responsible for establishing and maintaining an adequate system of
accounting and internal controls. An acceptable internal control system
provides cost controls to ensure optimal use of funds. Grant recipients
must adequately safeguard funds and ensure they are used solely for
authorized purposes. While our audit did not assess IAFN’s overall system
of internal controls, we did review the internal controls of IAFN’s financial
management system specific to the administration of cooperative
agreement funds during the period under review. Specifically, we
interviewed pertinent IAFN officials, reviewed written policies and
procedures that affect the OVW award, and reviewed the IAFN audit
report.

      Overall, we determined that there are adequate segregations of duties
with respect to IAFN’s process of requesting supplies and services through
the payment of invoices. However, we identified that the IAFN did not have
written contractual agreements for estimated services to be provided with its
hired consultants. We discuss this exception later in the “Monitoring of
Consultants” section of this report.




                                        4

Reporting

      The special conditions of the cooperative agreement require that IAFN
comply with administrative and financial requirements outlined in the current
edition of Financial Management Guide and the requirements of the Office of
Management and Budget (OMB) Circular A-133, Audits of States, Local
Governments and Non-Profit Organizations (OMB Circular A-133). 3 The
Financial Management Guide requires that award recipients submit both
financial and program progress reports to inform awarding agencies on the
status of each award. Federal Financial Reports (FFRs) should detail the
actual expenditures incurred for each quarterly reporting period, while
progress reports should be submitted semiannually and describe the
performance activities and achievements of the project supported by each
award.

       Because accurate and timely FFRs and progress reports are necessary
to ensure that DOJ awarding agencies can effectively monitor award
activities and expenditures, we reviewed all of IAFN submitted reports for
cooperative agreement number 2011-TA-AX-K021. As detailed in the
following sections, IFAN generally submitted the required FFRs and progress
reports in a timely manner. However, while we were able to verify that
progress reports accurately reflected actual program accomplishments, FFRs
did not accurately report cooperative agreement expenditures activity due to
adjustments made in the accounting records after the FFRs were filed.

Federal Financial Reports

     DOJ awarding agencies monitor the financial performance of each
award via FFRs. According to the Financial Management Guide, FFRs should
be submitted within 30 days of the end of each quarterly reporting period.
Even when there have been no outlays of award funds, a report containing
zeroes must be submitted. Awarding agencies may withhold funds or future
awards if reports are submitted late, or not at all.

     To verify the timeliness of the FFRs, we tested a total of nine reports
submitted as of April 23, 2013, which included award activity to March 31,
2013. We compared the submission date of each report to the date each

       3
          OMB Circular A-133 requires non-federal entities that expend at least $500,000 a
year in federal awards to have a single audit conducted of its financial statements. The
purpose of the single audit is to determine whether the financial statements and schedule of
expenditures of federal awards are presented fairly in all material respects and in conformity
with generally accepted accounting principles. Fiscal year 2012 was the first year that the
IAFN was required to have a Single Audit conducted. The Single Audit was completed on
June 4, 2013.


                                              5

report was due, and found that eight of the nine FFRs were submitted on
time. The first FFR was submitted 13 days late. We do not consider this late
submission to be material, as it was the only exception.

      The Financial Management Guide indicates that an awardee’s
accounting system for reporting must support all amounts reported on the
FFRs. To verify the accuracy of the FFRs, we discussed the process for
submitting FFRs with the responsible IAFN official and compared the
amounts reported on the nine FFRs to expenditures recorded in the
awardee’s accounting records. Based on our testing, we found that
expenditures reported on the FFRs did not reconcile to the official accounting
records of the award.

       IAFN uses QuickBooks online accounting software and an Excel
spreadsheet to keep track of grant expenditures. During our testing, we
found errors in the grant tracking spreadsheet that resulted in the
accounting records not being reconciled with the awardee’s monthly
expenses reported on the FFRs. According to the grantee official, the
difference between the accounting records and the FFRs relates to
corrections made to the general ledger after the FFRs were filed. The
grantee official told us that they were aware that the FFRs were not
accurately reported and that now the IAFN’s accountant is reviewing the
FFRs before they are filed.

       While the grant tracking spreadsheet is a valuable budgeting and
accounting tool, we believe the awardee should reconcile the spreadsheet to
the accounting records before the awardee files its FFRs. Because IAFN uses
the spreadsheet as the basis to track grant expenditures, an error in an FFR
will not only result in IAFN reporting the incorrect financial results for a
period, but also drawing down an incorrect amount of federal funds.
Therefore, we recommend that OVW require IAFN to develop and implement
a policy to reconcile the cooperative agreement records to ensure accurate
reporting on FFRs.




                                      6

Progress Reports

      While FFRs report an awards financial activity, progress reports
describe the project status and accomplishments toward the objectives
contained in the approved award application. Progress reports should also
describe the status of the project and compare actual accomplishments to
anticipated program objectives. According to the Financial Management
Guide, award recipients are required to submit semi-annual or annual
progress reports during the performance period of the award. Progress
reports are due 30 days after the end of each semi-annual reporting period,
June 30 and December 31.

      To assess whether IAFN submitted progress reports on time, we
reviewed four progress reports covering January 1, 2011, through December
31, 2012, and compared the submission dates to the due date for each
progress report. All four progress reports were submitted on time.

      We reviewed reported program achievements detailed in the progress
reports and compared data to verify performance claims for the last year of
the cooperative agreement were consistent with the program goals and
objectives. In order to verify information in the progress reports, we
selected a sample of three program accomplishments from the two most
recent progress reports submitted for the cooperative agreement. We then
traced the items to supporting documentation maintained by IAFN officials.
We requested verification in the following areas: (1) maintenance of a
website, including the site usage report detailing the number of site visits,
average visits, and new visits; (2) on-site technical assistance, including the
mode of communication; and (3) participation in OVW initiatives, meetings,
and task forces, including training topics covered, planning/development
meeting attendance, and the number of meetings held. IAFN officials
provided sufficient source documentation to support the information
reported to the OVW for all items in our sample.

Program Performance

       To assess IFAN’s achievements in meeting the goals and objectives for
the cooperative agreement, we reviewed the OVW grant solicitation and
documentation and interviewed IAFN officials and beneficiaries of the
program. The grantee implemented training efforts, and maintained an
interactive SAFEta website that promotes and disseminates the National
SAFE Protocol on a national level to assist those who are working with sexual
assault victims in communities throughout the United States and its
territories. Based on the information we reviewed, it appears that IAFN has
achieved or is on track to achieve the goals and objectives of the


                                       7

cooperative agreement. We were able to corroborate that the services being
provided were aligned with the cooperative agreement goals.

Drawdowns

       To obtain DOJ award money, recipients must electronically request
funds via drawdowns. According to the Financial Management Guide, award
recipients should only request federal award funds when they incur or
anticipate project costs. Therefore, recipients should time their requests for
award funds to ensure they will have only the minimum federal cash on
hand required to pay actual or anticipated costs within 10 days.

      According to IAFN personnel, drawdown requests are based on
reimbursements and they are electronically deposited into an approved
financial institution account. IAFN confirmed that their policy is to request a
drawdown based on the expenditures reported on the monthly expense
report. To ensure that IAFN requested funds properly and kept minimum
cash on hand, we analyzed its drawdowns to date and compared the overall
amount to the cooperative agreement’s accounting records. Overall, we
found that the amounts drawn down did not exceed the expenditures in the
accounting records.

Budget Management and Control

       Awardees should expend funds according to the budget approved by
the awarding agency and included in the final award. Approved award
budgets document how much the recipient is authorized to spend in high-
level budget categories, such as personnel, supplies, and contractors. The
Financial Management Guide also states that award recipients may request a
modification to approved award budgets to reallocate amounts between
various budget categories within the same award. No prior approval is
required if the reallocations between budget categories do not exceed
10 percent of the total award amount. We compared the actual amounts
spent in each budget category to the budgeted amounts in the same
categories. For cooperative agreement 2011-TA-AX-K021, IAFN adhered to
the Financial Management Guide requirements.




                                       8

Cooperative Agreement Expenditures

      According to 2 C.F.R. § 230 Cost Principles for Non-Profit
Organizations, costs are allowable if they are reasonable, consistently
applied, adequately documented, comply with policies and procedures, and
conform to any limitations or exclusions specified in applicable criteria. As of
March 29, 2013, the awardee’s accounting records reported $408,341 in
project costs associated with cooperative agreement number 2011-TA-AX­
K021. We tested nearly $112,600 (28 percent) in personnel, travel,
supplies, consultants, and other costs charged to the cooperative
agreement, and determined that the reviewed expenses were allowable.

Personnel and Fringe Benefits

       According to its accounting records, IAFN spent about $191,360 on
employee salaries and $20,020 on fringe benefits. To gain an understanding
of the payroll process, we interviewed IAFN’s CEO. IAFN payroll is processed
bi-weekly by Adams Keegan, Inc., an online independent human resource
services provider. 4 The salary and fringe benefit payments for employees
are automatically generated each pay period based on the employee’s
payroll and work project information entered into the system. Overtime pay
is not authorized under cooperative agreement number 2011-TA-AX-K021.

      We selected six nonconsecutive pay periods, totaling about $20,140,
for detailed testing to determine if salaries and fringe benefit charges were
supported and allowable. For the sampled pay periods, we found that the
approved employee timesheets supported the charges made to the
cooperative agreement.

       We reviewed the OVW-approved fringe benefit cost pool elements to
determine whether the elements were reasonable and in accordance with the
approved cooperative agreement budgets. We reviewed the fringe benefits
charged to the cooperative agreement for the same six nonconsecutive pay
periods as the personnel costs, totaling about $2,130, and determined that
the fringe benefit expenditures associated with the personnel costs were
reasonable and properly charged to the cooperative agreement.




      4
         IAFN contracts with Adams Keegan, Inc. to administer a variety of Human

Resource related functions, including processing payroll and guidance on human resource 

administration issues. The payroll system does not interface with the accounting system.



                                            9

Travel, Supplies, Consultant, and Other Costs

     We selected a judgmental sample of 61 transactions from the
categories of Travel, Supplies, Consultant and Other Costs from cooperative
agreement 2011-TA-AX-K021 totaling nearly $90,330 to determine if the
charges were allowable and allocable to the award. Based on our testing,
we determined that the sampled transactions were generally supported with
documentation, allowable, and allocated in accordance with the applicable
cooperative agreement laws, regulations, and guidelines.

Indirect Costs

      Indirect costs are those that have been incurred for common or joint
objectives and cannot be readily identified with a particular final cost
objective such as a grant or contract. IAFN indicates that their indirect costs
include administrative salaries and benefits, telephone, supplies, rent, and
accounting.

       According to the Financial Management Guide, grantees need to 

establish and seek approval for an indirect cost rate with their cognizant

federal agency to receive reimbursement for indirect expenses. IAFN

submitted an initial indirect cost proposal to the DOJ, and on January 9,

2012, was approved for a provisional indirect cost rate of 17.76 percent

effective for the period January 1, 2011, through December 31, 2013. As

summarized in Exhibit 2, IAFN has $62,576 in indirect costs recorded on

their general ledger for the period February 2011 – March 2013.


                  Exhibit 2: Summary of Indirect Costs

                   Fiscal Year (FY)       Indirect Costs
                         2011                      $19,575
                         2012                       33,612
                         2013                        9,389
                   Total                           $62,576
                     Source: IAFN general ledger

       According to 2 C.F.R. Part 230, a provisional rate is a temporary
billing rate used for reimbursements and reporting of indirect costs on
awards for a specified period of time pending the establishment of a final
indirect rate for the period. IAFN officials stated that the final indirect cost
rate proposals for FYs 2011 and 2012 were submitted in August 2013, but
IAFN has not received the final approval rates. Therefore, because IAFN



                                       10

has not received its final indirect cost rate for FYs 2011 and 2012, we
question FY 2011 - 2012 indirect costs totaling $53,187 as unsupported.

Monitoring of Consultants

      According to the Financial Management Guide, grantees should ensure
that they monitor organizations under contract to them in a manner that
ensures compliance with their own overall financial management
requirements. IFAN had neither written contractual agreements with its
consultants nor a formal policy for the selection and monitoring of
consultants.

      An IAFN official told us that they selected consultants based on
recommendations from other individuals, and that the OVW grant manager
responsible for overseeing the cooperative agreement approves the
consultants prior to trainings. This IAFN official also stated that the
consultants are monitored by IAFN employees attending training events led
by the consultants. Further, the IAFN official told us that the terms and
conditions of the cooperative agreement were agreed upon verbally with the
consultants, and that dates and places of trainings were verified via­
email. The grantee believed that since OVW approved the consultants in the
grant award a contractual agreement was not necessary.

      In determining the reasonableness of the professional service we
considered the adequacy of the contractual agreement. An adequate
contractual agreement includes the description of the service, estimate of
time required, compensation amount, and termination provisions. The lack
of a written agreement impairs the ability to assess the reasonableness of
the contractor agreement or monitor the contractor’s performance since no
specific criteria has been formally agreed upon. Therefore, we recommend
IAFN implement policies to ensure consultants are effectively selected and
monitored. Additionally, we recommend OVW require that IAFN develop and
implement a written contractual agreement that specifies the expected
services, estimate of time required, compensation amount, and termination
provisions.


Recommendations

We recommend that OVW:

  1. Ensure IAFN implements a policy to reconcile the cooperative

     agreement records to ensure accurate reporting on FFRs.




                                   11

2. Remedy the $53,187 in unsupported indirect cost charges.

3. Ensure that IAFN implement policies for selecting and monitoring
   consultants.

4. Ensure that IAFN develop written contractual agreements with its
   consultants.




                                 12

          SCHEDULE OF DOLLAR-RELATED FINDINGS




QUESTIONED COSTS: 5                                             AMOUNT PAGE
                                                                  ($)
Unsupported Indirect Costs

Indirect Costs                                                  53,187          11

    Total Unsupported Costs                                   $53,187

Total Questioned Costs                                        $53,187




      5
          Questioned costs are expenditures that do not comply with legal, regulatory or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.


                                           13

                                                        APPENDIX I

        OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the cooperative agreement reviewed were allowable,
supported, and in accordance with applicable laws, regulations, guidelines,
and terms and conditions of the cooperative agreement. The objective of
our audit was to review performance in the following areas: (1) internal
control environment; (2) federal financial reports and progress reports;
(3) drawdowns; (4) budget management and control; (5) expenditures,
including personnel and indirect costs; (6) monitoring of consultants; and
(7) program performance and accomplishments.

      We conducted this audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.

       Our audit concentrated on cooperative agreement number 2011-TA­
AX-K021 in the amount of $677,000 to the International Association of
Forensic Nurses (IFAN) awarded by the Office on Violence Against Women.
We reviewed cooperative agreement activities and transactions beginning
with inception of the award in February 2011, through the end of field work
in April 2013. Specifically, we interviewed pertinent IAFN officials, and
reviewed written policies and procedures that affect the OVW award,
including procurement, receiving, and payment procedures; the payroll
system; and monitoring of consultants to determine compliance with the
terms and conditions of the cooperative agreement, and to assess risk. We
found that IAFN had written policies and procedures to assist in the financial
and accounting administration of the cooperative agreements. Also, IAFN
utilizes a multi-layer approval process documenting the receipt of items
purchased, and the payment of invoices. We reviewed the IAFN payroll
procedures and determined that employees prepare and sign timesheets
that are electronically submitted to the IAFN’s Office Manager for review at
the end of the pay period. The Office Manager sends the approved
timesheets to IAFN’s Chief Executive Officer, who reviews them for accuracy,
and approves the timesheet if it is determined that the hours claimed are
correct.




                                     14

      In conducting our audit, we performed sample testing in the following
areas:

   •	 Drawdowns. We analyzed IAFN’s overall drawdowns of $408,362 for
      the DOJ award from the date of award obligation, May 3, 2011,
      through April 11, 2013. The overall drawdowns did not exceed the
      total expenditures per the cooperative agreement’s accounting
      records.

   •	 Payroll. We interviewed IAFN grant management personnel regarding
      the charging of personnel and fringe benefits costs to the cooperative
      agreement. To determine whether the cooperative agreement’s labor
      and fringe benefits costs were supported and allowed, we judgmentally
      selected employees to test from the six quarters of labor and fringe
      benefits charged to the award through the March 22, 2013 pay date.
      We tested personnel costs totaling $20,136 out of $191,362 charged
      to the cooperative agreement. There were no exception noted in our
      testing, and the labor and fringe benefits costs charged to the
      cooperative agreement were supported and allowable.

  •	   Transactions. To test the cooperative agreement’s transactions for
       authorizations, approvals, and sufficient supporting documentation, we
       judgmentally selected 61 non-payroll transactions totaling $90,325 out
       of $134,387 charged to the cooperative agreement. We analyzed the
       transactions to determine if the costs were properly authorized,
       classified, recorded, and supported.

      In addition, we reviewed the timeliness and accuracy of financial
  status and progress reports and reviewed the internal controls of the
  financial management system specific to the administration of cooperative
  agreement funds during the period under review.




                                     15

                                                                 APPENDIX II

INTERNATIONAL ASSOCIATION OF FORENSIC NURSES
        RESPONSE TO THE DRAFT REPORT





            International Association of Forensic Nurses


   September 10, 2013

   Troy M. Meyer
   Regional Audit Manager Washington Regional Audit Office
   Office of the Inspector General
   U.S. Department of Justice
   1300 N. 17th Street, Suite 3400
   Arlington, VA 22209

   RE: Response to Draft Audit Report dated August 23, 2013

   Dear Mr. Meyer:

       This letter is to address the recommendations included in the draft audit report of the
   Office of the Inspector General's (OIG) audit of the Office of Violence Against Women
   (OVW), Grant Number 2011-TA-AX-K021, awarded to the International Association of
   Forensic Nurses.

   1.	 Ensure IAFN implements a policy to reconcile the cooperative agreement records to
       ensure accurate reporting on FFRs.

      Forensic Nurses Response:

      We have written a Federal Grants Management Policy that is now currently under

      review with the Board of Directors to document procedures to ensure accurate

      reporting on FFRs.


   2.	 Remedy the $53,187 in unsupported indirect cost charges.

      Forensic Nurses Response:

      The association was awarded a provisional 3-year indirect rate in December 2011 for

      the period of 2011-2013 from our cognizant agency, the National Institute of Justice. 

      We have submitted subsequent final indirect rate proposals for both 2011 and 2012. 



                                           16

   These were submitted in August of 2013. No response from NIJ has been received as
   of this date. Once final indirect rates for 2011 and 2012 are approved, any and all
   dollar related findings regarding unsupported indirect costs can be resolved.

3. Ensure that IAFN implement policies for selecting and monitoring consultants.

   Forensic Nurses Response:

   We have written a Federal Grants Management Policy that is now currently under

   review with the Board of Directors to document policies on selecting and monitoring

   consultants.


4. Ensure that IAFN develop written contractual agreements with its consultants.

   Forensic Nurses Response:

   We have written a Federal Grants Management Policy that is now currently under

   review with the Board of Directors to document policies on developing written 

   contractual agreements with its consultants.



Sincerely,



Carey Goryl, MSW, CAE

Chief Executive Officer





                                      17

                                                                             APPENDIX III
OFFICE ON VIOLENCE AGAINST WOMEN RESPONSE TO
               THE DRAFT REPORT

                                                        U.S. Department of Justice
                                                        Office on Violence Against Women
                                                                  Washington, D.C. 20530
                    ____________________________________________________________________________
                                                                                  September 20, 2013

MEMORANDUM

TO:	                              Troy M. Meyer
                                  Regional Audit Manager
                                  Washington Regional Audit Office

FROM:	                            Bea Hanson
                                  Acting Director
                                  Office on Violence Against Women

                                  Rodney Samuels
                                  Audit Liaison/Staff Accountant
                                  Office on Violence Against Women

SUBJECT:	                         Audit of the Office on Violence Against Women Grant Awarded to the
                                  International Association of Forensic Nurses, Cooperative Agreement Number
                                  2011-TA-AX-K021


This memorandum is in response to your correspondence dated August 23, 2013 transmitting the above Draft Audit
Report for the International Association of Forensic Nurses (IAFN). We consider the subject report resolved and
request written acceptance of this action from your office.

The report contains four recommendations, $53,187 in unsupported indirect cost charges. The Office on Violence
Against Women is committed to working with the grantee to address each recommendation and bring them to a
close as quickly as possible. The following is our analysis of the audit recommendations.


    1)	 Ensure IAFN implements a policy to reconcile the cooperative agreement records to ensure accurate
        reporting on FFRs.

         We agree with this recommendation. We will coordinate with IAFN to ensure that they implement a policy
         to reconcile the cooperative agreement records to ensure accurate reporting on FFRs.

    2) Remedy the $53,187 in unsupported indirect cost charges.

         We agree with the recommendation. We will coordinate with IAFN to remedy the $53,187 in unsupported
         indirect cost charges.

    3) Ensure that IAFN implement policies for selecting and monitoring consultants.

         We agree with the recommendation. We will coordinate with IAFN to ensure that they implement policies
         for selecting and monitoring consultants.



                                                      18

    4) Ensure that IAFN develop written contractual agreements with its consultants.

        We agree with the recommendation. We will coordinate with IAFN to ensure that they develop written
        contractual agreements with its consultants.




We appreciate the opportunity to review and comment on the draft report. If you have any questions or require
additional information, please contact Rodney Samuels of my staff at
(202) 514-9820.

cc 	 Angela Wood
     Accounting Officer
     Office on Violence Against Women (OVW)

     Louise M. Duhamel, Ph.D.

     Acting Assistant Director

     Audit Liaison Group

     Justice Management Division 


     Debra Bright

     Program Specialist

     Office on Violence Against Women





                                                       19

                                                      APPENDIX IV

 OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND

  SUMMARY OF ACTIONS NECESSARY TO CLOSE THE

                    REPORT


       The Department of Justice (DOJ) Office of the Inspector General (OIG)
provided a draft of this audit report to the International Association of
Forensic Nurses (IAFN) and the Office on Violence Against Women (OVW).
The responses are incorporated respectively as Appendices II and III of this
final report. The following provides the OIG analysis of the response and
summary of actions necessary to close the report.

Recommendation Number:

1.	 Resolved. The OVW concurred with our recommendation and stated it
    will coordinate with IAFN to implement a policy to reconcile the
    cooperative agreement records to ensure accurate reporting on FFRs. In
    its response to the draft report, IAFN stated that a written Federal
    Grants Management Policy that outlines the procedures to ensure
    accurate reporting on FFRs is under review with its Board of Directors.
    This recommendation can be closed when we receive documentation
    showing that IAFN has implemented a policy to reconcile the cooperative
    agreement records to ensure accurate reporting on FFRs.

2.	 Resolved. The OVW concurred with our recommendation and stated it
    will coordinate with IAFN to remedy the $53,187 in unsupported indirect
    cost charges. In its response to the draft report, IAFN stated that in
    August 2013, it submitted subsequent final indirect rate proposals for
    both 2011 and 2012, and once the final indirect rates are approved, any
    and all dollar-related findings regarding unsupported indirect costs will
    be resolved. This recommendation can be closed when we receive
    documentation that OVW has remedied the $53,187 in unsupported
    indirect cost charges.

3. Resolved.	 The OVW concurred with our recommendation and stated it
   will coordinate with IAFN to ensure that they implement policies for
   selecting and monitoring consultants. In its response to the draft report,
   IAFN stated that a written Federal Grants Management Policy is under
   review with its Board of Directors that outlines the policies on selecting
   and monitoring consultants. This recommendation can be closed when
   we receive documentation showing that IAFN has implemented policies
   for selecting and monitoring consultants.


                                     20

4.	 Resolved. The OVW concurred with our recommendation and stated it
    will coordinate with IAFN to ensure that they develop written contractual
    agreements with its consultants. In its response to the draft report,
    IAFN stated that a written Federal Grants Management Policy is under
    review with its Board of Directors that outlines the policies on developing
    written contractual agreements with its consultants. This
    recommendation can be closed when we receive documentation showing
    that IAFN has developed and implemented written contractual
    agreements with its consultants.




                                      21

